Washington, D.C. 20530

September 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Joel Zupnik v. United States of America,
S.Ct. No. 20-171
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 3, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on September 27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0171
ZUPNIK, JOEL
USA

JACOB MOSHE ROTH
JONES DAY
51 LOUISIANA AVENUE, NW
WASHINGTON, DC 20001
202-879-3939
YROTH@JONESDAY.COM
ROGER E. ZUCKERMAN
ZUCKERMAN SPAEDER LLP
1800 M STREET, N.W.
SUITE 1000
WASHINGTON , DC 20036
202-778-1800

